23 I I Douglas Street
Omaha, Nebraska 68102- 1214

E-Mail Address:
contact@cocklelegalbriefs.com

1-800-225-6964
(402) 342-283 I
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No. 21-415
CARMEN ELECTRA, TIFFANY TOTH, GEMMA LEE,
JESSA HINTON, JESSE GOLDEN, LINA POSADA,
SHEENA LEE WEBBER, HEATHER RAE YOUNG,
RACHEL KOREN, SABELLA SHAKE URSULA MAYES,
Petitioners,
V. .

59 MURRAY ENTERPRISES, INC., DBA NEW YORK
DOLLS GENTLEMEN'S CLUB, JAY-JAY CABARET, INC.,
AAM HOLDING CORPORATION,
DBAPRIVATEEYES GENTLEMEN'S CLUB,
Respondents.
CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.l(h), I certify that the BRIEF IN OPPOSITION in
the above entitled case complies with the typeface requirement of Supreme Court Rule 33.l(b),
being prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes,
and this brief contains 7011 words, excluding the parts that are exempted by Supreme Court Rule
33.l(d), as needed.

Subscribed and sworn to before me this 14th day of October, 2021.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

NERAL NOTARY-State of Nebraska
RENEE J, GOSS
"1'f Comm. Exp. September 5, 2023

Affiant

41554

